Department of Homeland Security
   Ofﬁce of Inspector General



           FEMA's Implementation of the 

        Flood Insurance Reform Act of 2004





OIG-09-45                                March 2009
                                                              Office of Inspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                                       March 26, 2009

                                           Preface



The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to
the Inspector General Act of 1978. This is one of a series of audit, inspection, and special
reports prepared as part of our oversight responsibilities to promote economy, efficiency,
and effectiveness within the department.

This report addresses the Federal Emergency Management Agency’s Implementation of the
Flood Insurance Reform Act of 2004. It is based on interviews with employees and
officials of relevant agencies and institutions, direct observations, and a review of
applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust that this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report




                                       Richard L. Skinner 

                                       Inspector General 

Table of Contents/Abbreviations



Executive Summary ..……………………………………………………………….……1

Background ........................................................................................................................2


Results of Audit ..................................................................................................................5


Implementing the Flood Insurance Reform Act of 2004 .....................................................5 

Recommendations..............................................................................................................12

Management Comments and OIG Analysis ......................................................................12 


Increasing Inventories of Repetitive and Severe Repetitive Loss Properties ...................13 

Recommendations..............................................................................................................20

Management Comments and OIG Analysis ......................................................................21 


Challenges to Mitigating Repetitive and Severe Repetitive Loss Properties ....................21 

Recommendations..............................................................................................................25

Management Comments and OIG Analysis ......................................................................25 


Appendices

Appendix A: Objective, Scope, and Methodology ............................................................26 

Appendix B: Management Comments to the Draft Report ...............................................27 

Appendix C: Severe Repetitive Loss Grant Program Funding Targets.............................32 

Appendix D: Chronology of Events Regarding USACE Leased Properties .....................34 

Appendix E: Annual Increase in Repetitive Loss Properties and Claims..........................36 

Appendix F: Properties Offering Greatest Net Mitigation Benefit....................................37 

Appendix G: Repetitive Loss Properties Mitigated 1978 to 2007.....................................39 

Appendix H: Claims and Premiums of Select Severe Repetitive Loss Properties ............40 

Appendix I: FEMA’s 2000 Subsidy Reduction Plan Draft Recommendations.................42 

Appendix J: Major Contributors to this Report .................................................................43 

Appendix K: Report Distribution.......................................................................................44 


Abbreviations

     FEMA               Federal Emergency Management Agency
     SQANet             Simple & Quick Access Network
     USACE              U.S. Army Corps of Engineers
Executive Summary
              The Federal Emergency Management Agency (FEMA) has implemented
              key provisions of the Bunning-Bereuter-Blumenauer Flood Insurance
              Reform Act of 2004 (PL 108-264), most recently issuing program
              guidance for the severe repetitive loss grant program on January 14,
              2008. Provisions that apply actuarial flood insurance rates to certain
              river and coastal properties and expand the use of increased cost of
              compliance coverage have not been implemented.

              The number of insured repetitive loss properties in the National Flood
              Insurance Program increased from 41,443 in December 1999 to 70,226
              in December 2007. Nearly 43% of these properties, and 59% of insured
              severe repetitive loss properties, are located in Florida, Louisiana, and
              Texas.

              FEMA and its state and local partners have mitigated nearly 15,000
              repetitive loss properties since 1978, but an average of 5,188 new
              repetitive loss properties have been added each year outpacing FEMA
              mitigation efforts by a factor of 10 to 1. The number of insured
              properties annually incurring second and third flood losses has increased
              by 68% and 57%, respectively, over the past 20 years. We estimate that
              it would cost approximately $1.8 billion to mitigate through acquisition
              the current population of 8,040 severe repetitive loss properties.

              Many of the conditions we reported in 2002 regarding the challenges of
              mitigating repetitive loss properties remain today: (1) FEMA can only
              promote the notion of mitigation and cannot directly compel property
              owners in flood hazard areas to mitigate; (2) mitigation professionals
              need access to accurate information about repetitive loss properties to
              better manage the repetitive flood loss problem; and (3) the need to
              impose actuarial rates on repetitive flood loss properties is vital to the
              financial independence of the National Flood Insurance Program.




           FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                         1
Background
                The U.S. Congress established the National Flood Insurance Program in
                1968 in response to severe flooding following a series of hurricanes in
                1963, 1964, and 1965. The key policy objectives of the National Flood
                Insurance Program were threefold: (1) reduce the Nation’s flood risk
                through floodplain management; (2) improve flood hazard data and risk
                assessment by mapping the Nation’s floodplains; and (3) make
                affordable flood insurance widely available in communities that adopt
                and enforce measures that make future construction safer from flooding.

                The National Flood Insurance Reform Act of 1994 (PL 103-325)
                contained a number of key provisions to strengthen the National Flood
                Insurance Program that: (1) established fines for mortgage lenders that
                failed to ensure the mandatory purchase of flood insurance on properties
                located in special flood hazard areas; (2) increased the coverage limits of
                National Flood Insurance Program flood insurance policies; (3) provided
                supplemental increased cost of compliance coverage to assist property
                owners with the cost of bringing flood-damaged properties into
                compliance with local ordinances; (4) established the flood mitigation
                assistance grant program to help states and communities develop and
                implement mitigation measures that reduce future flood damage; (5)
                codified the National Flood Insurance Program Community Rating
                System, which rates communities and provides them financial incentives
                to adopt floodplain management standards above those set by the
                National Flood Insurance Program; and (6) required FEMA to assess its
                flood hazard map inventory at least once every 5 years.

                The Flood Insurance Reform Act of 2004 was enacted June 30, 2004, to
                reduce or eliminate future losses to properties in the National Flood
                Insurance Program. It established the repetitive flood claims and the
                severe repetitive loss grant programs. Repetitive loss properties are
                insured properties that have incurred two or more flood losses greater
                than $1,000 within any 10-year period. A subset of these properties are
                designated severe repetitive loss properties; these are insured properties
                that have incurred four or more flood-related losses of at least $5,000
                each, or at least two separate claims with the cumulative amount of the
                building payments exceeding the value of the structures on the property.
                At least two claims under each of these scenarios must have occurred
                within any 10-year period.




             FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                           2
   FEMA’s Mitigation Directorate manages the National Flood Insurance
   Program and a range of mitigation programs designed to reduce future
   losses to homes, businesses, schools, public buildings, and critical
   facilities. The Mitigation Directorate is composed of three divisions and
   each plays a role in flood hazard mitigation. These divisions and their
   primary functions are as follows:

       �	 The Risk Analysis Division applies engineering and planning
          practices in conjunction with advanced technology tools to
          identify hazards, assess vulnerabilities, and develop strategies to
          manage the risks associated with natural hazards.
       �	 The Risk Reduction Division works to reduce the risk to life
          and property through implementing grant programs, ensuring
          compliance with the National Flood Insurance Program,
          identifying safe building practices, and other tools and technical
          assistance.
       �	 The Risk Insurance Division helps reduce flood losses by
          providing affordable flood insurance for property owners and by
          encouraging communities to adopt and enforce floodplain
          management regulations that mitigate the effects of flooding on
          new and improved structures.

   The National Flood Insurance Program is administered in all 50 states by
   FEMA’s ten regional offices. FEMA provides training, technical
   assistance, and grants to communities that agree to work cooperatively
   with FEMA to identify and map flood-prone areas called special flood
   hazard areas and adopt and enforce local floodplain management
   measures and building ordinances that meet National Flood Insurance
   Program regulatory standards.

   State and local governments play a major role in coordinating FEMA
   activities within their state and also work with FEMA regional staff to
   assist communities in applying for mitigation grants. State Hazard
   Mitigation Officers and State National Flood Insurance Program
   Coordinators, working together with FEMA regional staff, assist
   communities in developing flood maps, ensuring compliance with
   floodplain requirements, regulating floodplain development, and
   upgrading local capabilities to meet National Flood Insurance Program
   standards. Community Floodplain Administrators are the front-line
   implementers of FEMA’s National Flood Insurance Program,
   responsible for ensuring compliance with all applicable floodplain
   management ordinances.



FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                              3

   The private sector participates actively in the National Flood Insurance
   Program by writing and servicing flood insurance policies, developing
   and maintaining the information technology infrastructure, identifying
   and mapping special flood hazard areas, and providing technical and
   consultative support to states and communities. Over 80 insurance
   companies have agreements with FEMA to sell and service flood
   insurance through the “Write Your Own” program. FEMA also relies
   on contractors to manage the repository for all National Flood Insurance
   Program policies for severe repetitive loss properties.

   Repetitive flood losses have been a major challenge for FEMA
   throughout the life of the National Flood Insurance Program.
   Historically, approximately 1% of the properties insured by the National
   Flood Insurance Program have accounted for over 30% of claims paid.
   Nearly one out of every ten homes that experienced repetitive flood
   losses had cumulative flood insurance claims that exceeded the value of
   the house. The age of the house is a key factor in this loss rate. FEMA
   estimates that 90% of all repetitive flood loss properties were built prior
   to December 31, 1974, or before the adoption of community flood
   insurance rate maps that properly reflect the probability of flooding in
   special flood hazard areas.




FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                              4

Results of Audit

        Implementing the Flood Insurance Reform Act of 2004
                         FEMA issued program guidance for the severe repetitive loss grant
                         program on January 14, 2008, to reduce or eliminate the long-term risk
                         of flood damage to severe repetitive loss structures. The interim final
                         rule for the severe repetitive loss grant program was published on
                         October 31, 2007. FEMA also implemented the repetitive flood claims
                         grant program on April 20, 2006, to assist communities that do not have
                         the technical or financial capacity to manage mitigation activities.

                         FEMA has not implemented a provision that applies actuarial flood
                         insurance rates to certain coastal and riverine properties located on
                         government-owned land. Many coastal and riverine properties leased
                         from the federal government for private and commercial uses are located
                         in high-risk hazard areas and receive subsidized flood insurance rates.
                         FEMA continues to work with the U.S. Army Corps of Engineers
                         (USACE), which manages the federal land where many of these
                         properties are located, to identify properties that are impacted by this
                         provision.

                         FEMA also has not implemented a provision that expands the use of
                         increased cost of compliance coverage to support mitigation projects by
                         offsetting all or part of the cost share requirement. A study1
                         commissioned by FEMA in 2006 revealed that property owners and
                         communities that lack financial resources to share the cost of mitigation
                         projects are considerably less likely to pursue mitigation.

                         There are significant differences in the capacity and will of states and
                         communities to mitigate flood hazards. Some states and communities
                         that have experienced multiple disasters in the past decade have
                         developed a hazard mitigation plan and acquired the capacity to mitigate
                         flood hazards, but other communities lack the necessary expertise,
                         financial resources, and will to develop a hazard mitigation plan or
                         implement mitigation projects.




1
 Dr. Fraser, James, Young, Hannah, DeVries, Danny (2006, June). Mitigating Repetitive Loss Properties.
University of North Carolina at Chapel Hill, Center for Urban and Regional Studies.


                     FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                                     5
                           Severe Repetitive Loss Grant Program

                           The severe repetitive loss grant program is the centerpiece of the Flood
                           Insurance Reform Act of 2004 and received congressional appropriations
                           of $40 million in 2006 (PL 109-090) and 2007 (PL 109-295), and $80
                           million in 2008 (PL 110-161).2 FEMA officials told us the holdup in
                           launching the severe repetitive loss program was due to the delay in
                           receiving Congressional funding for the program and the challenge of
                           developing rules and guidance for a voluntary program that leads to
                           direct financial consequences for insured property owners.

                           The purpose of the severe repetitive loss grant program is to reduce or
                           eliminate claims under the National Flood Insurance Program through
                           project activities that will result in the greatest savings to the National
                           Flood Insurance Fund in the shortest period of time. The severe
                           repetitive loss grant program differs from FEMA’s other mitigation
                           grant programs because a property owner who declines the mitigation
                           offer of assistance may experience increases to his or her National Flood
                           Insurance Program insurance premium rate.

                           The severe repetitive loss mitigation process occurs when FEMA has
                           awarded the grant to the state and the state awards the subgrant to the
                           local government. A formal offer of mitigation is extended from the
                           local government to the property owner. A pre-award consultation
                           process that notifies the property owner that his or her property has been
                           selected for the program by the local government precedes this offer.
                           Flood mitigation activities eligible under this program include: (1)
                           acquisition and relocation of at-risk structures and conversion of the
                           property to open space; (2) elevation of existing structures to at least the
                           base flood elevation or an advisory base flood elevation or higher; (3)
                           minor physical localized flood reduction projects; and (4) dry
                           floodproofing for historic properties only.

                           FEMA has targeted 90% of the severe repetitive loss grant program
                           funds to 17 states having 51 or more severe repetitive loss properties.
                           The remaining 10% of the grant program funds will be provided through
                           a competitive grant process to states that have fewer than 51 severe
                           repetitive loss properties. Although FEMA has targeted grant program
                           funds to specific states, the designated states must meet the requirements
                           of the severe repetitive loss grant program and submit a grant application

2
  Per PL 109-295 and PL 110-161, $50 million (FY 2007) and $90 million (FY 2008) were appropriated for flood
mitigation actions with respect to severe repetitive loss properties and repetitive insurance claims. In respect to
repetitive insurance claims, the Flood Insurance Reform Act authorized an amount not to exceed $10 million and
FEMA applied this amount to the repetitive flood claims grant program in both FY 2007 and FY 2008.

                       FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                                         6
   to receive funds. If they do not qualify or apply, funding targets are
   adjusted and the funds are made available to fulfill grant applications
   from other states. The severe repetitive loss grant program funding
   targets are in Appendix C.

   There are two key requirements outlined in FEMA program guidance
   that states and communities must meet to receive a severe repetitive loss
   program grant: (1) communities must participate in the National Flood
   Insurance Program and agree to adopt and enforce floodplain
   management ordinances; and (2) communities must have a FEMA-
   approved local hazard mitigation plan and be able to match up to 25% of
   the federal funding, or 10% in cases where the mitigation plan includes a
   strategy for mitigating existing and future severe repetitive loss
   properties.

   The Flood Insurance Reform Act of 2004 requires FEMA, when
   mitigating a severe repetitive loss property through acquisition, to offer
   the property owner the highest of four separate property valuations. One
   of the property valuation options considers the total amount owed by the
   owner. This valuation option could provide the property owner more
   compensation than the fair market value of the property. For example, a
   property owner with a substantial mortgage could take out an additional
   home equity loan prior to signing a pre-award consultation agreement
   with the community. The owner could potentially owe more than the
   property is worth at current fair market value, especially in light of
   recent declines in the housing market. According to the severe repetitive
   loss program guidance, FEMA is required to offer the property owner an
   amount equal to the balance of all loans secured by the property, even
   though the acquisition payment would exceed the fair market value of
   the property.

   Repetitive Flood Claims Grant Program

   In contrast to the severe repetitive loss grant program and FEMA’s other
   hazard mitigation grant programs, the repetitive flood claims grant
   program normally does not require any local cost share. FEMA may pay
   all of the mitigation costs under this program if the applicant or sub-
   applicant demonstrates that the proposed mitigation activities cannot be
   funded under the flood mitigation assistance program due to lack of
   capacity. According to program guidance, a lack of capacity is defined
   as either an inability to manage the subgrant or lack of the 25% cost
   share.

   The purpose of the repetitive flood claims grant program is to help states
   and communities reduce flood damages to insured properties that have

FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                              7

                         had one or more claims to the National Flood Insurance Program.
                         Repetitive flood claims grants are provided to eligible state, tribes, and
                         territories that, in turn, provide subgrants to local governments.
                         Mitigation activities eligible under this program include: (1) acquisition
                         of properties, and either demolition or relocation of flood-prone
                         structures, where the property is deed restricted for open spaces uses in
                         perpetuity; (2) elevations; (3) dry floodproofing of nonresidential
                         structures; and (4) minor localized flood control projects. Congress has
                         annually appropriated $10 million to this program since 2006.3

                         FEMA approved 79 properties for mitigation through the repetitive flood
                         claims program in fiscal years 2006 and 2007, and 66 of these properties
                         were mitigated by December 2007. Over half, or 44 of the 79 properties
                         approved for funding, meet the criteria for severe repetitive loss
                         designation.

                         Imposing Actuarial Rates to Coastal and River Properties

                         FEMA has not implemented a provision of the Flood Insurance Reform
                         Act of 2004 charging risk-based premiums for certain coastal and
                         riverine properties leased from the federal government. The Association
                         of State Floodplain Managers testified to Congress in 1999 that large
                         numbers of repetitive loss properties are located on federal land. They
                         endorsed charging full actuarial rates for privately owned and leased
                         buildings on federal land, believing it inappropriate for these properties
                         to receive subsidized flood insurance rates without adhering to
                         community regulations governing floodplain development.

                         Because state and local building codes and land use ordinances do not
                         generally apply to federal land, many communities cannot regulate
                         floodplain development even when privately owned and leased buildings
                         on federal land receive flood insurance from the National Flood
                         Insurance Program. FEMA now has the authority to charge risk-based
                         premiums for these properties.

                         Privately owned and leased buildings on federal land are generally
                         nonprimary residences such as vacation cottages. In Illinois, a majority
                         of all severe repetitive loss properties are located on federal land. An
                         Illinois state mitigation official told us the state is collaborating with
                         FEMA and the USACE to implement risk-based premiums for river
                         properties covered by the provision immediately.


3
 See, PL 109-90, 109-295, and 110-161. Pursuant to Section 104 of the Flood Insurance Reform Act of 2004,
Congress appropriated an amount not to exceed $10 million to this program.

                     FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                                     8
                            The severe repetitive loss properties pictured below are located in
                            Illinois on land leased from USACE. These properties, with a total
                            assessed value of $83,500, have received over $293,000 in flood loss
                            payments from the National Flood Insurance Program.




                           Total Claims Paid: $45,715                            Total Claims Paid: $58,952




                           Total Claims Paid: $129,650                           Total Claims Paid: $58,791

                            FEMA officials told us they have not had sufficient information on
                            properties located on federal lands to impose risk-based premiums.
                            FEMA and the USACE are currently engaged in an effort to address
                            coastal and riverine properties located on USACE-managed lands by: (1)
                            comparing data from their respective databases to identify property
                            owners who are obligated to pay actuarial rates according to the Flood
                            Insurance Reform Act of 2004; and (2) drafting an agreement that will
                            govern future development after FEMA mitigates the property through
                            acquisition. FEMA officials told us they will apply actuarial rates to
                            these properties as they are identified and validated beginning
                            May 1, 2009. A chronology of events pertaining to USACE-leased
                            properties is in Appendix D.4



4
    Chronology provided by U.S. Army Corps of Engineers, Institute for Water Resources, April 18, 2008.

                        FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                                        9
                         Increased Cost of Compliance Coverage

                         FEMA has not expanded the use of increased cost of compliance
                         coverage to offset all or part of the cost-sharing requirements for
                         mitigation projects funded under the flood mitigation assistance
                         program, the hazard mitigation grant program, and the pre-disaster
                         mitigation grant program. Increased cost of compliance coverage is
                         meant to help property owners cover the cost of bringing their property
                         into compliance with certain community floodplain ordinances. FEMA
                         officials told us this provision has been difficult to implement because of
                         the need to revise guidance and regulations for these programs.

                         The standard flood insurance policy includes a provision called
                         increased cost of compliance that will pay the policyholder up to
                         $30,000 to comply with state or local floodplain management laws and
                         ordinances affecting repair or reconstruction of a structure suffering
                         flood damage. An annual surcharge up to $75 is added to the basic
                         premium to fund this provision. Mitigation activities eligible under this
                         provision include elevation, flood proofing, relocation, demolition, or
                         any combination of these activities.

                         Prior to Congress giving FEMA the authority to expand the use of
                         increased cost of compliance coverage, a home or business had to be
                         damaged by flooding and the community had to determine whether the
                         damage was substantial or to a point that repairs would cost 50% or
                         more of the building’s pre-damage market value. The Flood Insurance
                         Reform Act of 2004 expanded the use of increased cost of compliance
                         coverage by allowing a community to determine substantial damage
                         based on its floodplain ordinance, thereby giving the community greater
                         flexibility in helping a property owner obtain funds to meet building
                         requirements that reduce future flood damage. It also expanded the use
                         of increased cost of compliance coverage to FEMA’s pre-disaster
                         mitigation grant program, which allows a property owner to use
                         increased cost of compliance coverage to mitigate flood hazards.

                         A study5 conducted by the University of North Carolina for FEMA in
                         2006 revealed that homeowners were six and a half times more likely to
                         mitigate when cost sharing is not required. FEMA mitigation grant
                         programs generally require a non-federal cost share of at least 25% of
                         eligible project costs. FEMA does not specify the source or sources of
                         this cost share. It may be provided through any combination of
                         resources provided by the applicant, sub-applicant, or property owner.

5
 Dr. Fraser, James, Young, Hannah, DeVries, Danny (2006, June). Mitigating Repetitive Loss Properties.
University of North Carolina at Chapel Hill, Center for Urban and Regional Studies.

                     FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                                     10
   Congress gave FEMA the authority to expand the use of increased cost
   of compliance coverage to better encourage mitigation by reducing or
   eliminating the cost-sharing requirement. FEMA officials told us they
   are currently finalizing the regulations to expand the use of increased
   cost of compliance coverage for all qualifying FEMA flood hazard
   mitigation programs.

   Capacity and Resources to Implement Mitigation Strategies

   State and local hazard mitigation officials reported wide differences in
   the capacity and will of communities to plan and implement mitigation
   strategies. This is important because flood hazard mitigation is a local
   activity. Although FEMA provides grant funds and administrative
   support, local floodplain and hazard mitigation professionals develop
   and implement the mitigation projects. When communities lack
   capacity to mitigate flood hazards, FEMA’s ability to ensure an effective
   national approach to flood hazard mitigation is diminished.

   The lack of local capacity to mitigate flood hazards takes many forms.
   In some cases, such as in New England and the Mid-Atlantic Region,
   capacity is often lacking because local governments are small and do not
   have dedicated flood hazard mitigation officials and resources. In other
   regions, communities may have experience and expertise in dealing with
   flood disasters, but lack the financial resources to meet cost sharing
   requirements. Hazard mitigation experts told us offsetting the cost share
   requirement for FEMA mitigation programs is important to encouraging
   flood hazard mitigation.

   Conclusion

   The implementation of the severe repetitive loss grant program and
   repetitive flood claims grant program fulfills two key provisions of the
   Flood Insurance Reform Act of 2004. However, we are concerned that a
   property valuation option for mitigating severe repetitive loss properties
   through acquisition could provide the property owner more
   compensation than the fair market value of the property. A provision
   that applies actuarial flood insurance rates to coastal and riverine
   properties leased from the federal government has not been fulfilled,
   which counters the intent of Congress to apply risk-based rates to these
   properties. FEMA has yet to expand the use of increased cost of
   compliance coverage, although implementation of this provision is
   particularly important to communities that lack the capacity to
   implement mitigation projects.



FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                              11

Recommendations
     We recommend that the FEMA Assistant Administrator, Mitigation
     Directorate:

     Recommendation #1: Implement a process to ensure pre-award
     consultation affirms the total amount owed by the owner for loans
     secured by a recorded interest on the property is less than or equivalent
     to the current fair market value of the property.

     Recommendation #2: Apply actuarial insurance rates to properties
     located on leased federal land as they are identified and validated.

     Recommendation #3: Finalize and implement regulations to expand the
     use of increased cost of compliance coverage for all qualifying FEMA
     mitigation programs.


Management Comments and OIG Analysis
     The Office of Program and Analysis did not concur with
     recommendation 1 and explained that program guidance was crafted to
     ensure any second mortgages or home equity loans taken out following
     the initial consultation meeting would not be included in the final offer.
     It also acknowledged our concern regarding potential discrepancies
     between fair market value and the balance of all loans.

     We recognize that program guidance stipulates that any loans secured by
     a recorded interest on the property and taken out by a property owner
     after the initial consultation meeting are not eligible, but we are
     concerned that the balance of second mortgages or home equity loans
     taken out before this meeting could exceed the fair market value of the
     property. This is especially relevant because of recent declines in the
     housing market and any discrepancy between the fair market value and
     what is owed by the property owner should be carefully considered
     before initiating a mitigation offer.

     We believe it is prudent that FEMA implement a process to ensure pre-
     award consultation affirms the total amount owed by the owner so that
     consideration can be given to any discrepancy with fair market value.
     This is important so that acquisition projects offering the best return on
     the investment are selected among eligible properties. We consider this
     recommendation unresolved and open.



  FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                12

            The Office of Program and Policy Analysis concurred with
            recommendations 2 and 3. We consider these recommendations
            resolved and open because steps are being taken to implement them;
            however, these recommendations will remain open until fully
            implemented.


Increasing Inventories of Repetitive and Severe Repetitive Loss
Properties
            The number of repetitive and severe repetitive loss properties and
            insurance claims are steadily increasing. The annual increase in new
            repetitive loss properties is outpacing FEMA mitigation efforts by a
            factor of 10 to 1. The number of insured properties annually incurring
            second and third flood losses has increased by 68% and 57%,
            respectively, over the past 20 years. Excluding the hurricane catastrophe
            years of 2004 and 2005, the rate of increase in second flood losses is still
            over 30%. Forty-three percent of insured repetitive loss properties and
            59% of insured severe repetitive loss properties are located in Florida,
            Louisiana, and Texas.

            Insured Repetitive Loss Properties

            The number of insured repetitive loss properties increased from 41,443
            to 70,226 from December 31, 1999, through December 31, 2007. The
            total number of both insured and uninsured repetitive loss properties
            increased from 88,813 to 141,525 during the same period. Insured
            properties have a direct impact on the National Flood Insurance Program
            because flood insurance claim payments can be made on both the
            structure and its contents. FEMA tracks the number of uninsured
            repetitive loss properties to maintain awareness of the trends of
            repetitive loss properties and previous mitigation efforts.

            The number of repetitive loss claims, and the average amount of each
            claim, has increased over the last 8 years. FEMA has paid an average of
            $35,200 for 20,004 repetitive loss claims each year from 1999 to 2007,
            costing the National Flood Insurance Program $705 million annually.
            Since its creation, the National Flood Insurance Program has paid $9.1
            billion for 405,049 repetitive flood loss claims at an average claims
            payment of $22,500. The annual increase in repetitive loss properties
            and claims from 1999 through 2007 is in Appendix E and illustrated in
            the following graph.




         FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                       13
                            Increase in Repetitive Loss Properties and Claims 1999 to 2007

                                 Insured Properties   Uninsured Properties   Annual Claims     Claims Trend

                       160,000                                                                           45,000


                       140,000                                                                           40,000

                                                                                                         35,000
                       120,000
Number of Properties




                                                                                                         30,000




                                                                                                                  Number of Claims
                       100,000
                                                                                                         25,000
                       80,000
                                                                                                         20,000
                       60,000
                                                                                                         15,000

                       40,000
                                                                                                         10,000

                       20,000                                                                            5,000

                            0                                                                            0
                                 1999 2000 2001 2002 2003 2004 2005 2006 2007



                                        Insured Severe Repetitive Loss Properties

                                        FEMA reported 8,040 validated and pending insured severe repetitive
                                        loss properties as of December 31, 2007. FEMA compares recorded
                                        data with evidence collected through site visits and examining other
                                        relevant data to validate a property. Those defined as pending have not
                                        been validated. Of the 8,040 severe repetitive loss properties, 1,088
                                        were pending validation at the end of 2007. The National Flood
                                        Insurance Program has paid a total of $1.258 billion since 1978 to settle
                                        44,239 severe repetitive loss claims for an average payment of $28,447
                                        per claim.




                                    FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                                                   14

                           The population of insured severe repetitive loss properties comprises
                           single-family and multi-family residences, condominiums, vacation
                           homes, and rental properties. FEMA has identified five properties with
                           the highest net present value of future losses that could be avoided
                           through mitigation, all beachfront condominiums. The four beachfront
                           properties pictured below received $18.2 million in flood claims (in
                           current dollars) from 1979 to 2005. A listing of properties offering the
                           greatest net mitigation benefit6 is in Appendix F.




                           Total Claims Paid: $10 million                   Total Claims Paid: $4.0 million




                           Total Claims Paid: $2.2 million                  Total Claims Paid: $2.0 million


                           Owners of beachfront vacation rental properties have also received
                           millions of dollars in payments from the National Flood Insurance
                           Program. FEMA paid a total of $1.57 million in flood claims to the
                           following four severe repetitive loss properties from 1979 to 2005.




6
 Net mitigation benefit is a calculation by FEMA’s actuaries that estimates the current value of reduced future
claims payments for a specific property based on the actual claims experience for the property and the average
expected annual losses for all subsidized policies using the actuarial concept of credibility.

                      FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                                        15
    Total Claims Paid: $395,823                 Total Claims Paid: $667,189
    Annual Premium: $1,849                      Annual Premium: $1,369




    Total Claims Paid: $313,618                 Total Claims Paid: $196,290
    Annual Premium: $1,357                      Annual Premium: $342


   According to real estate listings for these properties, which are all
   located on Dauphin Island, Alabama, the summer 2008 weekly rental
   rates range from $1,475 to $3,250. There were 34 severe repetitive loss
   properties on Dauphin Island, as of December 31, 2007.

   Most severe repetitive loss properties, however, continue to be older
   primary residences, many of which are not suitable for mitigation
   actions other than acquisition. The average cost of acquiring repetitive
   loss properties through the repetitive flood claims grant program has
   averaged $223,775 per property. Applying this cost to the severe
   repetitive loss properties grant program, we estimate it would cost
   around $1.8 billion to mitigate through acquisition the current
   population of 8,040 severe repetitive loss properties. The severe
   repetitive loss grant program currently has $160 million available.




FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                              16

            Location of Repetitive and Severe Repetitive Loss Properties

            Severe repetitive loss properties exist in all parts of the country, but are
            concentrated in coastal and riverine areas. The map below illustrates the
            location of severe repetitive loss properties.




         Number of Severe Repetitive Loss Properties per County

1 - 20              21 - 30                          31 - 40                     Over 40




         FEMA’s Implementation of the Flood Insurance Reform Act of 2004


                                       17

   Forty-three percent of insured repetitive loss properties, and 59% of
   insured severe repetitive loss properties, are located in Florida,
   Louisiana, and Texas. The pie charts below illustrate the top three
   locations of insured repetitive and severe repetitive loss properties in
   relation to all others.


         Location of Repetitive Flood Loss Properties
                      December 31, 2007

               Louisiana   Texas    Florida   All Other States




               11%


                                                             57%


        13%




                   19%




      Location of Severe Repetitive Flood Loss Properties
                      December 31, 2007

               Louisiana    Texas   Florida   All Other States:



                      17%                      7%




                                                                  41%
         35%




FEMA’s Implementation of the Flood Insurance Reform Act of 2004


                                    18

             Increase in Second and Third Flood Losses

             The number of insured properties incurring a second and third flood
             loss has increased from the past decade. From 1988 to 1997, 3,411
             properties incurred a second flood loss and 1,597 a third. From 1998
             to 2007, 5,735 properties incurred a second flood loss and 2,489 a
             third. Excluding data from the severe 2004 and 2005 hurricane
             seasons, 4,427 properties incurred a second flood loss and 1,913 a
             third. The graph below illustrates the increase in insured properties
             incurring a second and third flood loss.


                          Average Annual Number of Properties 

                         Incurring Second and Third Flood Loss 




6,000



5,000



4,000



3,000



2,000



1,000



   0
             1988-1997            1998-2007 (excluding       1998-2007 (including
                                   2004 & 2005 data)          2004 & 2005 data)

        Insured Properties Incurring 2nd Loss   Insured Properties Incurring 3rd Loss




             Increase in Repetitive Loss Properties Is Outpacing Mitigation

             An average of 5,188 new repetitive loss properties has been added to
             the National Flood Insurance Program each year since 1978. FEMA
             and its state and local partners have mitigated 14,970 repetitive loss
             properties over this time period, or around 500 a year. The net result

         FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                         19
     is an annual increase of over 4,600 new insured repetitive loss
     properties. Because of the imbalance between incoming repetitive
     loss properties and the pace of mitigation, 28,783 new insured
     repetitive loss properties have been added to the National Flood
     Insurance Program since 1999. Based on historical trends,
     approximately 10% of these properties will become severe repetitive
     loss properties. A summary of repetitive loss properties mitigated by
     each major FEMA mitigation grant program from 1978 to 2007 is in
     Appendix G.

     FEMA estimates that mitigation of the top-tier of repetitive loss
     properties can improve the stability of the National Flood Insurance
     Fund over the long-term, by avoiding an average of $200 million per
     year in claims. However, the severe repetitive loss grant program is
     only authorized as a 5-year pilot that will end September 30, 2009.
     The $160 million for this program may not be used completely by
     this date because of the time-consuming nature of the grant
     application, review, and approval process. Additionally, a large
     percentage of repetitive loss properties are located in areas affected
     by the hurricanes of 2004 and 2005, so the availability of these
     programs during reconstruction remains important to help reduce
     future losses. Extending the duration of the severe repetitive loss
     grant program is important to addressing the increasing number of
     severe repetitive loss properties.

     Conclusion

     The number of repetitive and severe repetitive loss properties and
     insurance claims has steadily increased over the past 8 years and is
     outpacing FEMA mitigation efforts. Over a third of all repetitive and
     severe repetitive loss properties are located in Florida, Louisiana, and
     Texas. The severe repetitive loss grant program should be extended
     beyond September 2009 to use all appropriated program funds to
     mitigate as many severe repetitive loss properties as possible.

Recommendations
     We recommend that the Assistant Administrator, Mitigation Directorate:

     Recommendation #4: Seek an extension from Congress that waives the
     termination date of the severe repetitive loss grant program until all
     appropriated funds are expended to mitigate as many severe repetitive
     loss properties as possible, and to fully assess the effectiveness of the
     pilot program.


  FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                20

                 Management Comments and OIG Analysis
                         The Office of Program and Policy Analysis concurred with our
                         recommendation. We consider this recommendation resolved because
                         steps are being taken to implement it; however, it will remain open until
                         fully implemented.


        Challenges to Mitigating Repetitive and Severe Repetitive Loss
        Properties
                         A May 2002 review7 of FEMA’s efforts to address repetitive flood loss
                         revealed three conditions that remain today: (1) FEMA can only
                         promote the notion of mitigation and cannot directly compel property
                         owners in flood hazard areas to mitigate; (2) mitigation professionals
                         need access to accurate information about repetitive loss properties to
                         better manage the repetitive flood loss problem; and (3) the need to
                         impose actuarial rates on repetitive flood loss properties is vital to the
                         financial independence of the National Flood Insurance Program.

                         Promoting and Enforcing Mitigation

                         FEMA encourages mitigation by: (1) promoting awareness of the
                         various hazard mitigation grants programs; (2) offering lower flood
                         insurance rates for individuals that mitigate their flood risk; and (3)
                         providing technical guidance and expertise to states and communities on
                         how best to mitigate flood hazards. However, FEMA cannot directly
                         compel property owners in flood hazard areas to mitigate their flood
                         risk. FEMA has the authority to suspend a community from the
                         National Flood Insurance Program for not complying with agreed-on
                         floodplain management regulations, but cannot deny an individual
                         policyholder insurance coverage if they choose not to mitigate.

                         States and communities that participate in the National Flood Insurance
                         Program can compel property owners in flood hazard areas to mitigate
                         their property through enforcement of local floodplain ordinances.
                         However, compelling property owners to mitigate flood risk is difficult
                         because: (1) communities may lack the capacity to inspect properties
                         and ensure compliance with local floodplain ordinances, particularly in
                         the immediate aftermath of a flood disaster when demands on local
                         resources are immense; (2) community officials are reluctant to impose

7
 Federal Emergency Management Agency, Office of Inspector General, Inspections Division, Extent That
Mitigation Funds Are Used to Address Repetitive Flood Loss and Other Related Issues, I-01-02, May 2002.

                     FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                                     21
                          building restrictions on citizens wanting to repair and return to their
                          homes following a disaster; and (3) many communities, particularly
                          smaller and rural communities, do not have the financial and staff
                          resources to identify and develop cost effective and technically feasible
                          pre-disaster mitigation projects that promote compliance with floodplain
                          ordinances.

                          Insurance agents and flood claims adjusters that support the National
                          Flood Insurance Program can also encourage mitigation by informing
                          property owners of FEMA’s mitigation programs, the availability of
                          increased cost of compliance funds, contact information for the local
                          floodplain administrator, and the impact mitigation will have on their
                          insurance premium. For example, a homeowner in Treasure Island,
                          Florida, mitigated her flood risk by elevating her home above the reach
                          of floodwaters and her insurance premiums dropped from $1,200 to
                          $365 per year. FEMA and other mitigation professionals told us the first
                          2 months after a flood disaster is a critical period to influence property
                          owners to mitigate flood risk. Beyond this period, homeowners are
                          likely to begin rebuilding without considering mitigation options
                          because of their need or desire to return to their home.

                          Effective mitigation strengthens the financial position of the National
                          Flood Insurance Program by eliminating or reducing the number of
                          insurance claims. FEMA estimates that $1.2 billion in flood losses are
                          avoided annually because communities have implemented floodplain
                          management requirements. The National Institute of Building Sciences,
                          in a 2005 FEMA-sponsored study, determined that effective flood
                          hazard mitigation delivers an overall benefit-cost ratio of 5 to 1.8 The
                          report also noted that in addition to the direct impact, flood mitigation
                          projects often lead to additional non-federally funded mitigation
                          activities and have the greatest benefits in communities that have
                          institutionalized hazard mitigation programs.

                          A Common Mitigation Operating Picture

                          FEMA and mitigation stakeholders have a limited operating picture of
                          flood hazard mitigation activities and outcomes across the nation.
                          Information regarding mitigation activities is currently collected and
                          stored in various electronic and paper-based formats in FEMA regional
                          offices, state emergency management and hazard mitigation offices,
                          local and municipal government offices, insurance and claims
                          adjustment company offices, and others. As a result, it is difficult for

8
 National Institute of Building Sciences, National Hazard Mitigation Saves: An Independent Study to Assess the
Future Savings From Mitigation Activities, 2005

                      FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                                      22
   mitigation professionals to fulfill their role in advancing flood hazard
   mitigation.

   FEMA is currently transitioning its core National Flood Insurance
   Program database BureauNet to a new database called Simple, Quick,
   Access Net (SQANet). BureauNet contains the insurance and claims
   history for around 5.5 million policies. SQANet is expected to improve
   the timeliness and accuracy of insurance and claims data, as well as
   provide enhanced access and reporting features. However, SQANet is
   not designed to provide additional information helpful to mitigation
   professionals such as the property’s base flood elevation, likely source
   of flooding, potential hydrological impacts, previous mitigation
   activities undertaken or recommended, net mitigation benefit, etc.

   FEMA employs a desktop computer application, the National Flood
   Mitigation Data Collection Tool, that could provide a common operating
   picture for mitigation activities and outcomes of severe repetitive loss
   properties, but the data elements have not been fully populated and the
   application is largely underutilized. FEMA will investigate the
   opportunity to place the tool online to capture additional mitigation
   activity data. A FEMA official told us the primary intent of this
   application is to develop an effective process to select mitigation
   projects; a secondary use is to identify and correct national flood
   insurance program data inconsistencies or errors.

   A December 2007 training needs assessment conducted by FEMA’s
   Risk Reduction Division revealed that less than one fourth of
   respondents were familiar with the benefits of the National Flood
   Mitigation Data Collection Tool, and half said the purpose and benefits
   had never been conveyed to them. State and community officials that
   were part of the training needs assessment also had a number of
   concerns about the test version of SQANet and commented that SQANet
   access and navigation was neither easy nor straightforward. A FEMA
   official told us they have improved the intuitiveness of the SQANet
   portal and developed training materials for the National Flood
   Mitigation Data Collection Tool. FEMA believes these new training
   aids, which will be introduced next fiscal year, will narrow the
   knowledge gaps identified in the December 2007 training needs
   assessment.


   Subsidized Versus Actuarial Insurance Rates

   FEMA estimates that 90% of insured properties built before the
   introduction of flood insurance rate maps pay subsidized insurance

FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                              23

                           premiums that average 30% to 40% of the actuarial rate. These
                           properties are statutorily entitled to receive subsidized insurance rates
                           based on previously existing circumstances until they are substantially
                           improved or damaged. Eliminating subsidized insurance rates would
                           require a statutory change and affect policyholders that do not have a
                           history of flooding, but it would also enhance the financial independence
                           of the National Flood Insurance Program.

                           It is important to recognize that exempting certain properties from
                           paying risk-based rates is not a common practice in the commercial
                           insurance market. The National Flood Insurance Program also differs
                           from commercial insurance because it does not collect sufficient
                           premium income to maintain a reserve for catastrophic flood losses. The
                           National Flood Insurance Program borrowed $17.5 billion from the U.S.
                           Treasury in order to pay claims and expenses following the 2005
                           hurricanes. The claims received and premiums paid by select severe
                           repetitive loss properties are in Appendix H.

                           FEMA developed a number of alternatives in 2000 to reduce subsidized
                           insurance rates. A FEMA official told us these proposals were discussed
                           with congressional staff and other stakeholders and some were included
                           in the President’s budget but not acted on by Congress, while some of
                           the proposals have resurfaced as a result of Hurricane Katrina. FEMA
                           estimates that implementing a combination of these strategies would
                           reduce the subsidy rates by roughly two-thirds over 7 years.9 A
                           summary of FEMA’s subsidy reduction plan is in Appendix I.

                           Conclusion

                           FEMA and other stakeholders encourage flood mitigation in a number of
                           ways, but it is difficult to compel property owners in high-hazard areas
                           to mitigate. FEMA employs a desktop computer application called the
                           National Flood Mitigation Data Collection Tool that could be a useful
                           tool in managing the severe repetitive flood loss grant program, if used
                           fully. The National Flood Insurance Program differs from commercial
                           insurance in operation and purpose. FEMA has developed alternatives
                           to reduce subsidized insurance rates, but congressional action is needed
                           to implement them.




9
    NFIP Subsidy Reduction Report, May 10, 2000

                       FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                                     24
Recommendations
     We recommend that the Assistant Administrator, Mitigation Directorate:

     Recommendation #5: Expand the use and utility of the National Flood
     Mitigation Data Collection Tool to all stakeholders involved in
     mitigating severe repetitive loss properties.


Management Comments and OIG Analysis

     The Office of Policy and Program Analysis did not concur with our
     recommendation, but it did acknowledge that the National Flood
     Mitigation Data Collection Tool can be used to develop effective
     mitigation grant applications. It also noted that a soon to be released
     version of the National Flood Mitigation Data Collection Tool contains
     over 50 enhancements.

     We agree that the enhanced National Flood Mitigation Data Collection
     Tool can be used to develop effective mitigation grant applications and
     provide a common operating picture for mitigation activities and
     outcomes, particularly by mitigation professionals addressing severe
     repetitive loss properties. We consider this recommendation unresolved
     and open but will close this recommendation when FEMA provides
     evidence that the enhanced National Flood Mitigation Data Collection
     Tool has been released and is being used by all stakeholders involved
     with mitigating severe repetitive loss properties.




  FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                25

Appendix A
Objective, Scope, and Methodology

                    The primary objective of our audit was to determine whether
                    FEMA complied with the major provisions of the Flood Insurance
                    Reform Act of 2004 and whether the strategies used by FEMA to
                    reduce the number of repetitive and severe repetitive loss
                    properties were effective. We conducted our audit from August
                    2007 to April 2008 and reviewed agency documents, analyzed
                    pertinent policies procedures, and interviewed FEMA officials and
                    industry representatives.

                    Our fieldwork extended to various federal, state, and local
                    agencies, and nongovernmental organizations including the
                    National Wildlife Federation, the Association of State Floodplain
                    Managers, the Coastal States Organization, and the National
                    Institute of Building Sciences. We conducted over 40 interviews
                    with FEMA officials in the Mitigation Directorate, FEMA regional
                    officials, state hazard mitigation officers, state National Flood
                    Insurance Program coordinators, community mitigation officials,
                    mitigation consultants, academic researchers, professional and
                    industry representatives, attorneys, and other experts in the field.

                    We also examined documentation relating to the issues addressed
                    in this audit including authorizing legislation, implementing rules,
                    and program guidance, and public comments and documents
                    submitted during the public comment period following enactment
                    of the National Flood Insurance Reform Act of 2004. We
                    reviewed internal FEMA documents including strategic and
                    operational plans, correspondence, analyses, and reports. We
                    analyzed data and case studies for mitigation actions funded
                    through the repetitive flood claims grant program. We also
                    reviewed reports on various aspects of repetitive flood loss
                    mitigation prepared by the Government Accountability Office, the
                    former FEMA Office of Inspector General, and various public
                    policy organizations.

                    We acknowledge the cooperation and courtesies extended to our
                    audit team during the course of this audit. We conducted this audit
                    under the authority of the Inspector General Act of 1978, as
                    amended, and according to generally accepted government
                    auditing standards. Those standards require that we plan and
                    perform the audit to obtain sufficient, appropriate evidence to
                    provide a reasonable basis for our findings and conclusions based
                    on our audit objectives. We believe that the evidence obtained
                    provides a reasonable basis for our findings and conclusions based
                    on our audit objectives.


              FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                            26
Appendix B
Management Comments to the Draft Report




             FEMA’s Implementation of the Flood Insurance Reform Act of 2004


                                           27

Appendix B
Management Comments to the Draft Report




             FEMA’s Implementation of the Flood Insurance Reform Act of 2004


                                           28

Appendix B
Management Comments to the Draft Report




             FEMA’s Implementation of the Flood Insurance Reform Act of 2004


                                           29

Appendix B
Management Comments to the Draft Report




             FEMA’s Implementation of the Flood Insurance Reform Act of 2004


                                           30

Appendix B
Management Comments to the Draft Report




             FEMA’s Implementation of the Flood Insurance Reform Act of 2004


                                           31

Appendix C
Severe Repetitive Loss Grant Program Funding Targets


                                        Number of Validated         Combined Fiscal Years
                                  Severe Repetitive Loss Properties   2006, 2007, 2008
Program Funds                                                                       $160,000,000
Administrative Expenses                                                               $6,400,000
Program and Technical Support                                                         $8,814,628
10% Competitive Grant Set-Aside                                                      $16,000,000
Total                                                                               $128,785,372
Connecticut                                                          79               $1,526,717
Maine                                                                 4                      $0
Massachusetts                                                      106                $2,048,507
New Hampshire                                                         8                      $0
Rhode Island                                                          3                      $0
Vermont                                                               0                      $0
FEMA Region I Total                                                200                $3,575,224
New Jersey                                                         590               $11,402,066
New York                                                           206                $3,981,060
Puerto Rico                                                          11                      $0
Virgin Islands                                                        3                      $0
FEMA Region II Total                                               810               $15,383,126
Delaware                                                             11                      $0
District of Columbia                                                  0                      $0
Maryland                                                              4                      $0
Pennsylvania                                                       243                $4,696,105
Virginia                                                             83               $1,604,019
West Virginia                                                        40                      $0
FEMA Region III Total                                              381                $6,300,124
Alabama                                                            223                $4,309,595
Florida                                                            479                $9,256,932
Georgia                                                              37                      $0
Kentucky                                                             69               $1,333,462
Mississippi                                                        146                $2,821,528
North Carolina                                                     210                $4,058,363
South Carolina                                                       26                      $0
Tennessee                                                            17                      $0
FEMA Region IV Total                                             1,207               $21,779,880




                  FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                                32
Appendix C
Severe Repetitive Loss Grant Program Funding Targets

Illinois                                                           57              $1,101,556
Indiana                                                            37                     $0
Michigan                                                            4                     $0
Minnesota                                                           1                     $0
Ohio                                                               44                     $0
Wisconsin                                                          2                       $0
FEMA Region V Total                                              145               $1,101,556
Arkansas                                                           4                       $0
Louisiana                                                      2,578              $49,821,232
New Mexico                                                         0                       $0
Oklahoma                                                          58               $1,120,881
Texas                                                          1,270              $24,543,431
FEMA Region VI Total                                           3,910              $75,485,544
Iowa                                                               3                       $0
Kansas                                                             5                       $0
Missouri                                                         107               $2,067,832
Nebraska                                                           2                       $0
FEMA Region VII Total                                            117               $2,067,832
Colorado                                                           0                       $0
Montana                                                            0                       $0
North Dakota                                                       1                       $0
South Dakota                                                       0                       $0
Utah                                                               0                       $0
Wyoming                                                            0                       $0
FEMA Region VIII Total                                             1                       $0
American Samoa                                                     0                       $0
Arizona                                                            0                       $0
California                                                       160               $3,092,086
Guam                                                               0                       $0
Hawaii                                                             8                       $0
Mariana Islands                                                    0                       $0
Nevada                                                             1                       $0
FEMA Region IX Total                                             169               $3,092,086
Alaska                                                             0                       $0
Idaho                                                              0                       $0
Oregon                                                             7                       $0
Washington                                                        39                       $0
FEMA Region X Total                                               46                       $0




                FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                              33
Appendix D
Chronology of Events Regarding USACE Leased Properties

1944 – First leases of cottages on USACE property.
1960s – The permanent placement of floating cabins, cottages, and nontransient mobile
homes and trailers for private exclusive use at USACE project areas is discouraged.
1970s – USACE begins to phase out existing leases to private parties due to floodplain
management issues and safety risks.
1981 – Congress passes Public Law 97-140, Section 6, which imposed a moratorium
through December 31, 1989, on enforced removal of certain private use facilities from
any USACE reservoir or lake project.
1986 – Congress passes the Water Resources Development Act (WRDA) of 1986 Public
Law 99-662, of which Section 1134 extended the moratorium indefinitely to cottage site
leases or permitted structures that existed on November 17, 1986 (date of enactment).
This Act includes a statutory provision that holders of USACE cabin leases must agree to
hold harmless the United States from any claim, including federal flood insurance, for
damages or injury in persons or property arising from the leaseholder’s occupancy.
1993 – Most cabins on USACE-leased properties are damaged during Midwest flooding.
1993 – FEMA issues a legal opinion that the hold harmless provision does not prohibit
FEMA from offering flood insurance to the holders of these leases.
1993 – USACE approves various lease modifications:
   1.	 USACE will not make filing a claim for federal flood insurance grounds for lease
       termination.
   2.	 USACE will formally notify FEMA and the Small Business Administration that
       USACE will not consider full-time occupancy of the Upper Mississippi Valley
       cottage sites a substantial violation of the lease.
   3.	 USACE will inform FEMA and the Small Business Administration that vacated
       tracts will be leased if needed for “immediate use for public park purposes or
       other higher public use,” and they will not be leased for cottage sites or other
       residential purposes.
1994 –USACE memo (June 17) allows leaseholders to file flood insurance claims.
2000 – FEMA Region 5 and USACE Mississippi Valley Division develop a joint issue
paper identifying six issues related to the cottage lease sites:
   1.	 A large number of repetitive loss structures exist on USACE property.
   2.	 Structures on sites leased from USACE account for the largest source of repetitive
       loss structures in the State of Illinois.
   3.	 USACE has a legal responsibility to continue leasing the cabin sites so long as
       they comply with Section 1134 of WRDA 1986.
   4.	 Despite state, local, and federal regulations, violations of floodplain regulations
       continue to exist on property leased by USACE.


                FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                              34
Appendix D
Chronology of Events Regarding USACE Leased Properties

   5.	 FEMA cannot deny flood insurance coverage on structures located within a
       community participating in the National Flood Insurance Program.
   6.	 Since 1993, the State of Illinois has attempted to reduce losses on USACE 

       properties through mitigation programs. 

2004 – Flood Insurance Reform Act of 2004 (PL 108-264) requires FEMA to apply
actuarial flood insurance premiums to all federal lease properties located riverside of a
flood damage reduction structure.
2007 April – At a USACE/FEMA flood risk management regional workshop, the State of
Illinois brings up the six aforementioned cottage lease issues to HQUSACE senior
leaders.
2007 August – Jersey County, Illinois, sends letter to Commander of Mississippi Valley
Division, seeking better coordination and cooperation from USACE on termination of
cabin leases.
2007 August – Meeting conducted in St. Louis with St. Louis District, FEMA Region 5,
State of Illinois, and Jersey County representatives. Summary of meeting –
   o	 USACE should be able to terminate leases for noncompliance with local 

      floodplain ordinances. Need a strong stance. States will be supportive. 

   o	 Dealing with these sites is very labor intensive.
   o	 Transfer of leases can happen without USACE involvement.
   o	 Need support from HQUSACE and consistent process among districts.
   o	 Need Memorandum of Agreement between FEMA/USACE on deed restriction
      language.
   o	 Would like more proactive communication/notification between 

      USACE/FEMA/counties with leaseholders on risk.

2007 September – The Intergovernmental Flood Risk Management Committee discusses
cabin lease site issues. Participants agree to support efforts to resolve issues and will
begin to track progress on a quarterly basis.
2007 October – Meeting conducted at HQUSACE with real estate and Mississippi Valley
Division Representatives. Participants agree that HQUSACE counsel will contact FEMA
counsel once a point of contact was provided to discuss deed restriction conflict and
provide list of cabin leases.




                FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                              35
Appendix E
Annual Increase in Repetitive Loss Properties and Claims




               Year             Total          Insured          Uninsured      Claims   Payments



             199910           88,813            41,443             47,370     245,018   $3.5 billion

               2000           97,870           47,513              50,357     270,857   $4.0 billion

               2001          102,585           49,150              53,435     284,575   $4.4 billion

               2002          106,555           50,871              55,684     296,369   $4.7 billion

               2003          110,441           51,200              59,241     307,852   $5.0 billion

               2004          117,484           55,589              61,895     327,681   $5.5 billion

               2005          130,416           65,649              64,767     366,523   $7.5 billion

               2006          137,779           69,323              68,456     391,648   $8.7 billion

               2007          141,525           70,226              71,299     405,049   $9.1 billion




10
     1999 data represents cumulative year-end totals from 1978 to 1999.

                      FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                                      36
Appendix F
Properties Offering Greatest Net Mitigation Benefit


       State               City             County/Parish                   Property Type
   Pennsylvania         New Hope            Bucks County                     Condominium
                                                                       Current Annual Insurance
                       Date of Claim        Claim Amount
                                                                          Premium $37,788
                        6/28/2006              $550,448
                         4/3/2005              $347,950
                        9/18/2004              $561,767
                        10/25/1996             $10,988                    Photo Not Available
                           Total              $1,471,153
      Total in Today's Dollars:               $1,649,788
       Net Mitigation Benefit:                $1,324,800


       State               City             County/Parish                   Property Type
      Florida             Destin           Okaloosa County              High-Rise Condominium
                                                                       Current Annual Insurance
                       Date of Claim        Claim Amount
                                                                           Premium $2,082
                        8/25/2005              $16,974
                        7/10/2005              $27,058
                        9/16/2004              $782,511
                        10/4/1995              $652,566                   Photo Not Available
                           Total              $1,479,109
      Total in Today's Dollars:               $2,036,406
       Net Mitigation Benefit:                $1,223,100


       State               City             County/Parish                   Property Type
      Florida             Destin           Okaloosa County             High-Rise Condominium
                                                                       Current Annual Insurance
                       Date of Claim        Claim Amount
                                                                           Premium $1,580
                        8/25/2005              $16,974
                        7/10/2005              $27,059
                        9/16/2004              $781,285
                        10/4/1995              $578,522                   Photo Not Available
                           Total              $1,403,840
      Total in Today's Dollars:               $1,913,173
       Net Mitigation Benefit:                $1,149,900




                FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                              37
Appendix F
Properties Offering Greatest Net Mitigation Benefit

       State                City            County/Parish                   Property Type
     Alabama           Orange Beach         Baldwin County              High-Rise Condominium
                                                                       Current Annual Insurance
                       Date of Claim         Claim Amount
                                                                           Premium $3,951
                         8/29/2005              $11,211
                         9/16/2004            $1,515,840
                         9/26/2002                 $2,117
                         9/28/1998             $954,467
                         10/4/1995             $394,708
                            Total             $2,878,343
      Total in Today's Dollars:               $3,903,982
       Net Mitigation Benefit:                $3,098,700


       State                City            County/Parish                   Property Type
     Alabama            Gulf Shores         Baldwin County              High-Rise Condominium
                                                                       Current Annual Insurance
                       Date of Claim         Claim Amount
                                                                          Premium $68,099
                         8/29/2005              $66,180
                         9/16/2004             $431,644
                         9/27/1998             $514,360
                            Total             $1,012,184
      Total in Today's Dollars:               $1,431,407
       Net Mitigation Benefit:                $1,157,100


       State               City            County/Parish                    Property Type
      Florida          Pensacola          Escambia County               High-Rise Condominium
                                                                       Current Annual Insurance
                      Date of Claim        Claim Amount
                                                                          Premium $15,866
                        8/28/2005             $710,229
                        7/10/2005            $1,658,834
                        9/16/2004            $7,229,922                   Photo Not Available
                        4/10/1995            $1,299,472
                          Total             $10,898,457
     Total in Today's Dollars:              $13,237,943
      Net Mitigation Benefit:               $10,470,400




                FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                              38
Appendix G
Repetitive Loss Properties Mitigated 1978 to 2007



                                                                  Flood                 Repetitive
                                                Hazard          Mitigation Pre-Disaster  Flood             Severe
                                    Total      Mitigation       Assistance Mitigation    Claims          Repetitive    Other
                                  Properties     Grant            Grant       Grant      Grant           Loss Grant   Funding
                                  Mitigated    Program           Program     Program    Program           Program     Sources
Flood Protection Provided
Elevated to or above Base Flood
Elevation                              1,464          528              137           0               0            0        799
Elevated not to Base Flood
Elevation                                 12                0            0           0               0            0         12
Floodproofed to Base Flood
Elevation                                 46            29               0           0               0            0         17
Partially Floodproofed                    57             4               0           0               0            0         53
Flood Control Project                  1,868            12               9           0               0            0      1,847
New Building on Site                     725             9              39           1               0            0        676
Flood protection provided                 71             0               0           0               0            0         71
Totals for Flood Protection
Provided                               4,243          582             185            1               0            0      3,475

No Building on Property
Demolished/Not Acquired                3,184           12               2            0           0                0      3,170
Demolished/Acquired                    4,706        2,567             233           25          66                0      1,815
Relocated                                152           61               5            0           0                0         86
No building on property                   69            0               0            0           0                0         69
Totals for No Building on
Property                               8,111        2,640             240           25          66                0      5,140

Other Mitigation Types
Greater Than 100 Years                    64                0            0           0               0            0         64
Unable to Determine                       32                0            0           0               0            0         32
Address Not Specific                   2,350                0            0           0               0            0      2,350
Historic Building                        170                0            0           0               0            0        170
Other Mitigation Type Totals           2,616                0            0           0               0            0      2,616

Total Properties Mitigated           14,970         3,222             425           26          66                0     11,231




                  FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                                   39
Appendix H
Claims and Premiums of Select Severe Repetitive Loss Properties


        State                         City                 County/Parish             Property Type
      Louisiana                 St. Francisville        West Fecliciana Parish        Single-Family
                                                                                 Current Annual Insurance
                                 Date of Claim              Claim Amount
                                                                                      Premium: $450
                                   2/5/2005                    $4,479
                                   7/5/2002                    $10,518
                                   3/25/1997                   $20,301
                                   6/11/1995                   $10,521
                                   5/1/1994                    $8,447
                                   5/2/1994                    $8,716
                                   5/3/1994                    $3,303
                                     Total                     $66,285


        State                         City                 County/Parish             Property Type
      Louisiana                      Kinder                  Allen Parish             Single-Family
                                                                                 Current Annual Insurance
                                 Date of Claim              Claim Amount
                                                                                      Premium: $362
                                   5/16/2004                   $5,664
                                   11/5/2002                   $8,897
                                  11/30/2001                   $16,288
                                  10/15/2001                   $2,555
                                   1/15/1998                   $3,331
                                   4/13/1995                   $2,295
                                   3/17/1995                   $2,343
                                   2/2/1994                    $2,123
                                  12/16/1991                   $5,029
                                     Total                     $48,525


        State                         City                 County/Parish             Property Type
        Illinois                    Fieldon                 Jersey County             Single-Family
                                                                                 Current Annual Insurance
                                 Date of Claim              Claim Amount
                                                                                     Premium: $1,277
                                   5/10/1996                   $1,326
                                   5/19/1995                   $24,851
                                   7/2/1993                    $22,618
                                   4/11/1993                   $14,433
                                     Total                     $63,228




                   FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                                   40
Appendix H
Claims and Premiums of Select Severe Repetitive Loss Properties



        State               City            County/Parish                   Property Type
        Texas           Beaumont           Jefferson County                  Single-Family
                                                                       Current Annual Insurance
                       Date of Claim        Claim Amount
                                                                            Premium: $415
                        10/15/2006             $20,164
                         5/30/2006              $3,883
                         9/24/2005             $26,248
                        11/22/2004              $6,621
                         5/1/2004               $7,252
                         10/9/2003             $16,123
                         9/27/1996              $1,256
                        10/17/1994              $6,615
                         4/7/1993               $7,563
                           Total               $95,725


     State               City               County/Parish                   Property Type
     Illinois          Fieldon              Jersey County                    Single-Family
                                                                       Current Annual Insurance
                    Date of Claim           Claim Amount
                                                                            Premium: $511
                      5/10/2002                $19,542
                      5/30/1996                 $1,951
                      5/17/1995                 $7,014
                      8/2/1993                 $13,000
                      5/3/1993                  $6,381
                      5/1/1983                  $4,470
                      8/5/1982                  $1,968
                      8/15/1981                 $1,619
                      4/15/1979                 $8,939
                        Total                  $64,884




                FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                              41
Appendix I
FEMA’s 2000 Subsidy Reduction Plan Draft Recommendations


Below are various subsidy reduction alternatives analyzed and discussed by FEMA in
May 2000. FEMA concluded adopting a combination of the following actions over 7
years could reduce the subsidy by roughly two-thirds, if there is full funding of FEMA’s
enhanced mitigation strategy.




�	 Adopt actuarial rating for all Pre-Flood Insurance Rate Map nonprincipal
   residences and all nonresidential properties. Increase rates on these buildings to
   full actuarial rates over 7 years. Introduce Pre-Flood Insurance Rate Map elevated
   rate tables with the next rate change. To implement this, elevation certificates will be
   required of all affected buildings. Phase-in the elevation certificate requirement over
   a yet-to-be-determined multi-year period.
�	 For the remaining Pre-Flood Insurance Rate Map subsidized policies (primarily
   principal residences), adopt annual rate changes over the next 7 years that, on
   average, will exceed the annual inflation rate and further reduce, but not
   eliminate, the percentage of subsidy provided. Balance the exact amount of the
   changes against the National Flood Insurance Program’s goals of continued market
   penetration and high retention rates for the current book of insureds.
�	 For all Pre-Flood Insurance Rate Map subsidized nonprincipal residences and
   nonresidential properties, introduce a deductible of 3% of the amount of
   insurance purchased, subject to a minimum $1,000 deductible for each claim.
�	 Structure rates to encourage individuals to insure their structures to full
   replacement cost value, subject to maximum program limits. FEMA will design
   the rate tables (mentioned in the first action item above) to resemble the current Post-
   Flood Insurance Rate Map V-Zone rate tables. These tables incorporate increasingly
   higher rates the more the structure is underinsured.
�	 Support increased mitigation activities in coordination with the above four
   National Flood Insurance Program actions. This includes –
   �	 Full funding of the FEMA Repetitive Loss Strategy,
   �	 Continuing the increased funding for mitigation beyond the 4 years provided for
      in the FEMA Repetitive Loss Strategy, and
   �	 Increasing the amount of Hazard Mitigation Grants Program (HMGP) funds
      available and targeted for retrofitting or buyouts in a post-disaster event.




                FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                              42
Appendix J
Major Contributors to this Report


Major Contributors to This Report
Norman Brown, Director, Preparedness and Mitigation Division, Office of Emergency
Management Oversight

Craig Anderson, Auditor-in-Charge, Preparedness and Mitigation Division, Office of
Emergency Management Oversight

Aaron Naas, Program Analyst, Preparedness and Mitigation Division, Office of
Emergency Management Oversight




               FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                             43

Appendix K
Report Distribution


Report Distribution
      Department of Homeland Security

      Secretary

      Acting Deputy Secretary 

      Chief of Staff of Operations 

      Chief of Staff of Policy 

      Acting General Counsel 

      Executive Secretariat 

      Director, GAO/OIG Liaison Office 

      FEMA Acting Administrator 

      Assistant Secretary for Office of Policy 

      Assistant Secretary for Office of Public Affairs 

      Assistant Secretary for Office of Legislative Affairs 

      FEMA Audit Liaison


      Office of Management and Budget

      Chief, Homeland Security Branch 

      DHS OIG Budget Examiner 


      Congress

      Congressional Oversight and Appropriations Committees, as appropriate




               FEMA’s Implementation of the Flood Insurance Reform Act of 2004

                                             44
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
